<html>
<title> - PRIORITIES OF THE HOUSE OFFICERS AND LEGISLATIVE BRANCH ENTITIES FOR FY 2018 AND BEYOND</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



                             
 
                    PRIORITIES OF THE HOUSE OFFICERS
                         AND LEGISLATIVE BRANCH
                    ENTITIES FOR FY 2018 AND BEYOND

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 6, 2017

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      
      
      


                       Available on the Internet:
       www.gpoaccess.gov/congress/house/administration/index.html
       
       
                             ________

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-695                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001      
  
  
  
       
       
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia





PRIORITIES OF THE HOUSE OFFICERS AND LEGISLATIVE BRANCH ENTITIES FOR FY 
                            2018 AND BEYOND

                              ----------                              


                        MONDAY, FEBRUARY 6, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 5:00 p.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Walker, 
Smith, Loudermilk, Brady, Lofgren, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Senior 
Advisor; Cole Felder, Counsel; C. Maggie Moore, Legislative 
Clerk; Erin McCracken, Communications Director; Rob Taggart, 
Deputy Legislative Clerk/Oversight; Alex Attebery, Staff 
Assistant; Katie Patru, Deputy Staff Director for Outreach and 
Communications; Jamie Fleet, Minority Staff Director; Matt 
Pinkus, Minority Senior Policy Advisor; Khalil Abboud, Minority 
Chief Counsel; Eddie Flaherty, Minority Chief Clerk; Teri 
Morgan, Minority Deputy Counsel; and Meredith Connor, Minority 
Staff Assistant.
    The Chairman. I now call to order the Committee on House 
Administration for the purpose of starting today's hearing on 
the operations and priorities of the House officers and 
legislative branch entities. A quorum is present, so we may 
proceed.
    I would like to start off by thanking my colleagues and our 
witnesses for your attendance today. I know how busy everyone 
is, and we appreciate your flexibility and willingness to 
appear this afternoon. I would also like to thank our witnesses 
for their hard work and assistance during our New Member 
Orientation, for their help in creating a very smooth 
transition for Members and their staff into the 115th Congress, 
and especially for the incredible amount of work that went into 
securing and hosting the Presidential inauguration. We know 
many months of preparation went into ensuring our government 
carried out the sacred peaceful transition of power from one 
administration to another.
    2017 marks the Committee on House Administration's 70th 
year of existence. We are holding this hearing earlier than 
usual because I felt it was prudent that we as a Committee have 
an opportunity to hear from each of you as we start this 
Congress. We share a common goal of serving both the public and 
our Members and staff. I believe that this Committee and your 
agencies will only be successful in accomplishing that goal if 
we work together. We want to know you priorities, needs, and 
expectations for 2017 and 2018. We also want to hear from you 
about any issues that are pending or may come up this Congress. 
I look at this hearing as a way to put it all out on the table 
so we can speak and have this discussion.
    Each of you plays a unique and critical role in serving the 
public as well as Members and staff. For example, the Architect 
of the Capitol maintains the buildings and grounds across the 
Capitol complex and Supreme Court so that we can conduct 
business on behalf of the American people. The Library of 
Congress is the collector and protector of the world's largest 
assemblage of catalog books, photographs, films, maps, sheet 
music, and more things than we can mention. The Government 
Publishing Office is responsible for the collection, 
production, distribution, and preservation of public 
information for all three branches of government. The United 
States Capitol Police is charged with keeping our Nation's 
democracy safe. We must meet the demands of today. That 
includes, among other things, protecting against ever-evolving 
technologies.
    Like many organizations, you have to protect your 
infrastructures from those who wish us harm. Your agencies are 
also forced to meet their missions in a very difficult budget 
environment. This is when priorities become essential, as well 
as using the resources allocated by Congress wisely.
    Again, I look forward to hearing from you today, working 
with you in the future, and I thank you for your appearance 
before our Committee today.
    I would now like to recognize my colleague and Ranking 
Member, Mr. Brady, for the purpose of providing an opening 
statement.
    Mr. Brady.
    [The statement of The Chairman follows:]
    Mr. Brady. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    I first would like to introduce our newest member of our 
Committee, Congressman Jamie Raskin from Maryland. Congressman 
Raskin has big shoes to fill succeeding my friend my friend 
Chris Van Hollen, who moved over to the House of Lords down the 
hall, otherwise known as the United States Senate. Jamie will 
be a great asset to this Committee. During his decade in the 
Maryland senate, he was a leader on campaign finance and 
election reform issues.
    And to our witnesses today, a word of caution: Jamie is a 
local member. So he represents many of your employees. So I 
expect him to be paying very close attention to how your 
agencies run. So, welcome, Congressman Raskin.
    Mr. Raskin. Thank you so much.
    Mr. Brady. I would like to be brief because I want to hear 
from our agencies. But I have four quick comments.
    Chief, your team did an excellent job with the 
inauguration, the Women's March, and all the activities 
surrounding the start of the new Congress. Sean Gallagher did a 
great job on Inauguration Day. So I want to make sure you knew 
we were paying attention. Also, I want to personally thank you 
for you coming into my city, the city of Philadelphia, and 
making me proud. Your office did an excellent job under tough, 
tough circumstances. Hot as could be with their vests at the 
checkpoints, and they really, really did a professional job and 
made everybody--made me proud of the job that you do, and let 
everybody know that you do the same exact job in D.C. So I want 
to thank you for that.
    To the Librarian, I look forward to having you in 
Philadelphia soon. I understand you are coming to see me, and I 
wanted to acknowledge that I thought David Mao did an excellent 
job as Acting Librarian, and I am sad to see him go. And I know 
we will have your work cut out for you. But you can handle it, 
I am sure.
    Stephen, your team did a great job on all the moves--though 
Weidemeyer always does a solid job. As someone who has a new 
suite in the Rayburn Office because you kicked me out of the 
Cannon--but that is okay; I like the Rayburn better now--I am 
continually impressed with your organization. And you did a 
great job for all of us. And I know it was a tough time because 
Members being moved when we don't have to move because of the 
remodeling of the Cannon, but it fit in well. And I thank you 
for that. Thank you from my office and doing a great job with 
that too.
    Davita, thank you for always being available to me and my 
team and helping us work through some issues from time to time. 
I want you to know that I very much appreciate how difficult 
your job can be.
    So that is all I have to say, Mr. Chairman. We are lucky to 
have these witnesses working for us, and I look forward to 
hearing from them.
    The Chairman. Thank you, Mr. Brady.
    And I would also like to introduce our new Members to this 
Committee. Not new to Congress, but new to the Committee: Barry 
Loudermilk and Adrian Smith.
    Welcome. We are glad to have you here.
    I am glad you mentioned David Mao, who we will miss. I 
can't believe he is having to work late on his last day at the 
Library of Congress.
    But you are very much appreciated for all your hard work, 
Dr. Mao. And we wish you the very best in the future.
    Does any other Member wish to be recognized for the purpose 
of an opening statement?
    As a housekeeping matter, the hearing record will remain 
open for 5 legislative days so that Members may submit any 
supplemental materials they wish to include.
    I would now like to introduce our witnesses for today. 
First, Stephen Ayers was appointed by the President and 
confirmed by the Senate to serve as the Architect of the 
Capitol in 2010, making him the 11th Architect of the Capitol. 
Mr. Ayers is responsible for the entire Capitol complex 
facility, management, operations, and including reasonable and 
responsible renovation and sustainability programs. He is also 
responsible for all the works of art in the Capitol, 
maintaining and restoration of the murals, outdoor sculptures, 
and other architecture elements throughout.
    And we welcome you, Mr. Ayers.
    Mr. Ayers. Thank you.
    Dr. Carla Hayden was sworn in as the 14th Librarian of 
Congress on September 14, 2016. Her appointment to this 
position also marked the very first time in our Nation's 
Library that we have had it led by a woman and an African 
American. She is a librarian's librarian, dedicating her entire 
career to pursuing the accessibility of libraries in 
communities. In her short time leading the Library, Dr. Hayden 
has already demonstrated her commitment to continuing the 
tradition of collecting, preserving, and making available a 
vast collection of educational resources, and protecting these 
collections for future generations.
    The Committee welcomes you, Dr. Hayden.
    Davita Vance-Cooks became the 27th individual to direct the 
U.S. Government Publishing Office in 2013. Ms. Vance-Cooks is 
the first woman and first African American to lead the agency 
and has served in a variety of management roles at GPO since 
2004, I believe. As Director, Ms. Vance-Cooks has guided the 
agency towards cutting costs while at the same time modernizing 
GPO to improve services. Specifically, GPO has focused on 
expanding the electronic availability of government information 
via public apps, bulk data downloads, and of course e-books.
    Welcome back, Ms. Vance-Cooks.
    Ms. Vance-Cooks. Thank you.
    The Chairman. On March 21, 2016, Matthew R. Verderosa was 
sworn in as the Chief of the U.S. Capitol Police. Chief 
Verderosa is the ninth Chief and has served in numerous roles 
with the U.S. Capitol Police since, I believe, 1986, including 
positions in the Uniformed Services, the Patrol Division, the 
Internal Affairs Division, and the Training Services Bureau. As 
Chief of the U.S. Capitol Police, Chief Verderosa is 
responsible for commanding a force of sworn and civilian 
personnel who are dedicated to providing comprehensive law 
enforcement, security, and protective operations services to 
the U.S. Congress, Members, staff, millions of annual visitors, 
and the surrounding complex.
    Welcome back, Chief Verderosa.
    Chief Verderosa. Thank you, sir.
    The Chairman. Again, we thank each of you for joining us 
today. The Committee has received your written testimony. At 
the appropriate time, I will recognize you for 5 minutes to 
present a summary of that information. Of course, you know how 
the light system works. When it goes yellow, you have 1 minute. 
And then red means bring it in for a landing at some point.
    The Chair now recognizes the Architect of the Capitol, 
Stephen Ayers, for 5 minutes.

STATEMENTS OF THE HONORABLE STEPHEN T. AYERS, ARCHITECT OF THE 
CAPITOL; THE HONORABLE CARLA HAYDEN, PH.D., LIBRARIAN, LIBRARY 
   OF CONGRESS; THE HONORABLE DAVITA VANCE-COOKS, DIRECTOR, 
 GOVERNMENT PUBLISHING OFFICE; MATTHEW R. VERDEROSA, CHIEF OF 
              POLICE, UNITED STATES CAPITOL POLICE

          STATEMENT OF THE HONORABLE STEPHEN T. AYERS

    Mr. Ayers. Thank you, Chairman Harper and Ranking Member 
Brady, and Members of the Committee. I really appreciate the 
opportunity to be with you today to provide an overview of the 
Architect of the Capitol's operations, achievements, and goals.
    In 1793, George Washington laid the cornerstone of the 
United States Capitol, and construction began on Dr. William 
Thornton's winning design. Dr. Thornton is known as the first 
Architect of the Capitol. And today, nearly 225 years later, 
our Capitol campus has grown to more than 17.4 million square 
feet of space, spanning 36 facilities and 570 acres of grounds. 
Today the campus is home to more than 30,000 daily occupants 
and millions of visitors throughout the world and the United 
States.
    In fiscal year 2016, we inspired more than 2.2 million 
visitors to the Capitol Visitor Center to explore the roots of 
our country's government through stories and hands-on 
activities. In addition, 1.2 million visitors to the United 
States Botanic Garden were informed about the important, often 
irreplaceable, value of plants to the well-being of our 
society.
    Our mission to serve the Congress and the Supreme Court, 
preserve America's Capitol, and inspire memorable experiences 
recognizes the trust placed in us as the builder and steward of 
our country's most iconic landmarks. The 2,100 talented and 
dedicated men and women of the AOC proudly work 24 hours a day, 
7 days a week, and 365 days a year to balance the 
responsibility of preserving historic buildings while meeting 
the demands of a modern workforce. Viewed from a distance, our 
buildings are inspiring and impressive. But up close, they are 
distressed as weather and age and deferred maintenance have 
destroyed their stone exteriors. The integrity of our buildings 
is threatened by water infiltration, which can have disastrous 
consequences.
    The Congress continues to make good investments in stone 
preservation, our top priority, to reduce the risk for which we 
are extremely grateful. We have been able to make good progress 
to improve our infrastructure, and recently completed several 
major projects across the campus, including the first 
restoration of the United States Capitol dome and rotunda in 
more than 50 years, the initial phase of the Cannon House 
Office Building renewal, and the United States Capitol stone 
preservation project, the successful conservation of the 
Ulysses S. Grant Memorial, just to name a few.
    The eyes of the Nation and the world are upon us each and 
every day. And we are honored to support so many high-profile 
events, including the 58th Presidential inauguration, where our 
team of professionals completed all of the necessary 
construction well ahead of schedule. We are pleased to play an 
important role in welcoming each new Congress. This year, our 
teams managed moves for 199 House Members in just 24 working 
days with not a single injury. And we are very proud of that. 
Our project prioritization process allows us to maximize each 
and every taxpayer dollar as we go about executing these 
essential projects. Yet risk remains. And we look forward to 
continuing to work with the Congress to address the growing 
backlog of preventive maintenance projects, today estimated at 
more than $1.5 billion.
    Improving the energy efficiency of our campus is also a 
central concern. And over the last 10 years, we have achieved a 
30.9 percent reduction in energy usage. Further reducing energy 
consumption remains an agency priority, and we have established 
a new 10-year goal of achieving an additional 20 percent 
reduction in energy consumption by the end of 2025.
    We strive to be a world-class organization providing 
superior service to our clients. And we appreciate this 
Committee and the congressional community for your continued 
support. Thank you.
    [The statement of Mr. Ayers follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you, Mr. Ayers.
    The Chair now recognizes the Librarian of Congress, Dr. 
Carla Hayden, for 5 minutes.
    Dr. Hayden.

         STATEMENT OF THE HONORABLE CARLA HAYDEN, PH.D.

    Ms. Hayden. Thank you. Thank you, Chairman Harper, Ranking 
Member Brady, Members of the Committee. It is a great honor to 
appear here today for the first time, Chairman Harper, Ranking 
Member Brady, Members of the Committee.
    I would like to start by thanking each of you that I have 
had an honor to meet for your warm welcome, your offers of 
support, and the commitment that you have expressed for the 
Library since I have been in the position. You and your 
predecessors in this body built the Library, and it remains one 
of the greatest gifts and legacies that Congress has given to 
the American people.
    I would also like to recognize Deputy Librarian Dr. David 
Mao. As you know, David served as the Acting Librarian of 
Congress for an entire year. And during that time, he led many 
efforts to improve Library management and operations. David has 
accepted a leadership position at the Georgetown University and 
will be leaving the Library later this month. So I wanted to 
personally thank him for his service and thank him for making 
my transition so much easier.
    I was asked recently what my favorite thing is about being 
the Librarian of Congress. And what it is, is that every day I 
have the opportunity to discover something new, from letters 
written by Rosa Parks to photographs of early inaugurations 
through history to a letter that Albert Einstein wrote to 
Sigmund Freud. These treasures are rivaled only by the staff.
    During my first months at the Library, I conducted a 
listening tour, meeting with staff and learning about our 
operations. It has been the highlight of my first 4 months to 
meet these incredibly dedicated and skilled public servants. I 
have assembled my senior leadership team and established our 
communications channel so we can work effectively and 
efficiently for the institution. I have met with many Members 
of Congress to learn more about your perspective on the 
Library. And I have also met with dozens of groups and 
individuals in the creative community and other users of the 
Copyright Office. And, finally, I have taken some initial steps 
toward increasing the Library's accessibility, both onsite and 
online. We have opened the Librarian's Ceremonial Office and 
expanded the hours of our Young Readers Center. We have 
launched a new home page that is more dynamic. And as many of 
you know, I am now tweeting, allowing me to interact directly 
with Library users around the globe. It has been a stimulating 
and energizing 4 months. And it is just the beginning of, I 
hope, a very exciting dynamic time.
    The Library has undertaken a visioning effort that involves 
analyzing trends at other information-based organizations. I 
have been working with our new strategic planning officer to 
strengthen how we plan, develop goals, and track our progress. 
We are also formulating a Library-wide digital strategy. Of 
course, a digital strategy hinges on good IT, information 
technology, fundamentals. As this Committee is very much aware, 
the Library has had some challenges in the area of information 
technology. But I am pleased to report that important progress 
is being made.
    Among the recommendations the Library received was to hire 
a chief information officer. In September of 2015, Bernard 
Barton, Bud, began as CIO. He joins me today. Under his 
leadership, we have made steady progress in implementing 
recommendations made by the GAO and the Library's inspector 
general to improve information technology services, most 
importantly in the areas of better defined investment planning, 
cybersecurity, and centralization. I appreciate all that Mr. 
Barton and his staff have done, and I look forward to reporting 
in the future, not just on improvements, but also on IT 
innovations at the Library of Congress.
    Another critical priority is collection stewardship. The 
Library opened an interim storage facility this year. And high 
on my priority list is also the modernization of the Copyright 
Office. As always, service to Congress is the core mission of 
the Library. And the Congressional Research Service and Law 
Library stand ready to serve you.
    Thank you very much, and I am delighted to be here today.
    [The statement of Ms. Hayden follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    The Chairman. Thank you, Dr. Hayden.
    The Chair now recognizes the Government Publishing Office 
Director, Davita Vance-Cooks, for 5 minutes.

         STATEMENT OF THE HONORABLE DAVITA VANCE-COOKS

    Ms. Vance-Cooks. Good evening. Chairman Harper, Ranking 
Member Brady, and Members of the Committee on House 
Administration, thank you for inviting me to address priorities 
for fiscal year 2018 and beyond.
    I am pleased to state that today the GPO is in a good 
place. We are a digital publishing operation with a diversified 
product and services portfolio, and we have won multiple 
digital innovation awards. We have a wonderfully engaged 
workforce committed to the mission of keeping America informed. 
And it is because of them that we have achieved so much.
    In the results of the fiscal year 2016 Employee Viewpoint 
Survey, GPO's engagement score was 9.3 points higher than the 
governmentwide score. Our finances for fiscal year 2016, as 
confirmed by our KPMG annual audit, were the strongest they 
have ever been in the past 5 years. Our congressional 
appropriation requests over the past 5 years have been 
relatively flat. We have successfully halted the growth of our 
overhead spending costs, and our budgeted staffing level of 
1,750 employees is the lowest this century.
    Our productivity exponentially increased because we 
embraced digital equipment, digital products, and digital 
processes. For example, Mr. Chairman, with your approval as the 
Chairman of the JCP, we put into operation a zero make-ready 
press, called a ZMR. It allowed us to, A, phase out three 
outdated presses installed back in 1979, and, B, it allowed us 
to cut the page rate for publishing congressional hearings, the 
first such rate reduction in memory. Our digital repository 
database, called FDsys, and its newly introduced successor, 
called govinfo, supports openness and transparency. This 
database now holds more than 1.6 million titles in the Federal 
Government information. And we now have retrievals of nearly 40 
million documents per month.
    As we look into the future, we will continue to focus on 
modernizing our operations and providing value to our 
stakeholders. And I want you to know that we are strategically 
positioned to meet the demands of 2018. First, we will continue 
to implement strategies to improve our employee engagement 
because our employees are the best assets we have.
    Second, we will implement the first phase of our new 
digital composition system that composes bills in XML. It will 
also include a feature for modernizing the publishing of 
hearings as requested by this Committee.
    Third, we will develop a new cost accounting system to 
simplify the ratemaking process and provide visibility and 
transparency to our costs and billing.
    Fourth, we will continue to strengthen our partnership with 
the network of 1,148 Federal depository libraries across the 
Nation by collaborating on projects which will improve program 
flexibility. By the way, there are 34 Federal depository 
libraries in the districts represented by the Members of this 
Committee.
    Fifth, we will continue to strengthen our partnership with 
the private-sector printing industry by automating our print 
procurement program. This program produces three-quarters of 
all the orders we handle, provides highly competitive prices, 
and supports tens of thousands of jobs nationwide, primarily in 
the small business sector. In fiscal year 2016, the dollar 
value of the awards for the States represented by the members 
of this Committee was $197 million.
    Sixth, we will release govinfo from beta, and we intend to 
earn designation as the first Federal agency to meet the 
international standards of a trusted digital repository.
    And, lastly, after 5 years of collaboration and cooperation 
with the Department of State, we are ready to launch the U.S. 
Government passport--the next gen. Now, as you can imagine, 
cybersecurity is a challenge, and we are a member of the 
Committee on Cybersecurity to look into it. Thank you for 
approving the $2 million to address that issue.
    And, in closing, where legislative changes are concerned, I 
respectfully ask for a change in the JCP rule that requires the 
GPO to request approval before making an expenditure over 
$50,000 or an interagency agreement over $20,000. These 
thresholds were set over 30 years ago, long before we had 
financial controls and an IG and annual audits. The other 
legislative branch agencies don't have this requirement, and I 
am asking for parity.
    Mr. Chairman, Ranking Member Brady, and Members of the 
Committee, this concludes my openings remarks--on the money.
    [The statement of Ms. Vance-Cooks follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    The Chairman. Outstanding. Thank you so much.
    The Chair now recognizes the Chief of the Capitol Police, 
Matthew Verderosa.
    Chief.

               STATEMENT OF MATTHEW R. VERDEROSA

    Chief Verderosa. Thank you, sir. Good evening, Mr. 
Chairman, Ranking Member Brady, and Members of the Committee. 
Thank you for this opportunity to discuss the United States 
Capitol Police and our mission to protect Congress. It is my 
honor to serve as Chief of Police, and I am honored to be here 
with you today. I am joined here today by my executive team and 
my executive management team, including our Chief 
Administrative Officer, Richard Braddock; our General Counsel, 
Gretchen DeMar; and our new Chief of Operations, Assistant 
Chief Steve Sund. Steve Sund comes to us from the Metropolitan 
Police after serving 25 years, bringing significant senior 
command and operational experience to the department.
    Also joining me today is the department's Inspector 
General, Fay Ropella, as well as the USCP Fraternal Order of 
Police Gus Papathanasiou.
    Mr. Chairman, I would like to begin today by thanking the 
Committee for its steadfast support of the United States 
Capitol Police and its mission. The regular discussions that we 
have had with you and your staff are greatly appreciated, as 
they allow us the opportunity to provide the Committee with 
important updates about our activities, challenges, and areas 
of focus. In addition, I am grateful for the Committee's 
engagement and feedback so the department may continue to 
effectively meet the needs of the House of Representatives and 
that of Congress. Additionally, I would like to thank the 
United States Capitol Police Board for its guidance and support 
as we carry out our complex security and law enforcement 
operations.
    I would like to take this opportunity to recognize the 
women and men of the United States Capitol Police. On a daily 
basis, they publicly demonstrate how the American freedoms that 
we hold dear are carried out in our Nation's Capitol. They work 
tirelessly to ensure that the Congress is able to conduct its 
legislative responsibilities without disruption, all the while 
exhibiting the utmost respect for the Constitution and the 
protection of First Amendment liberties. I am thoroughly 
impressed with the performance and their commitment as they 
constantly rise to the occasion and to handle whatever comes 
our way.
    Last May, I had the pleasure of appearing before the 
Committee to provide an overview of the department's management 
plan for fiscal year 2017 and beyond. As I stated then, it is 
the responsibility of the USCP to do everything possible to 
protect and safeguard Members, staff, and visitors each day in 
an open and complex environment as the threats and risk we face 
today are increasingly sophisticated and dynamic. In 
coordination with the Capitol Police Board and oversight 
committees, the USCP has developed a multiyear strategy that 
provided for growth of the department to fulfill three critical 
new mission sets: enhancement of the House garage security, the 
addition of pre-screeners and overwatch personnel at various 
building access points, and the continued use of enhanced 
portal scanners.
    I am pleased to report that, after reallocating internal 
resources to begin to address these emerging priorities, the 
department has deployed the House garage security screening 
initiative for approximately 60 percent of the House Buildings. 
By working in concert with the Architect of the Capitol's 
Rayburn Garage renovation project, the department is expected 
to complete the final stage of this initiative when specific 
security milestones are accomplished with the Rayburn Garage 
redesign and buildout in fiscal years 2018 through 2019. 
However, staffing of security posts is dependent, obviously, 
upon additional resources.
    Additionally, the department has begun to increase its 
capacity for pre-screeners and overwatch personnel at various 
office building access points by leveraging our new K9 teams 
and subject interdiction officer capabilities. This initiative 
will become more visible to the congressional community in the 
coming months.
    And to complete the list, the department has had great 
success in utilizing the enhanced portal screeners on visitors 
wishing to enter the House Chamber during major events, such as 
the State of the Union and joint meetings of Congress. While 
additional resources are necessary in the outyears to complete 
these initiatives and to provide the necessary stationary 
posts, I remain confident in the department's ability to meet 
these new mission sets within the next several years and 
continued support of the Capitol Police Board and Congress.
    I do want to note that the new responsibility assigned to 
the department of protecting and securing O'Neill House Office 
Building, which will take effect later this spring, will likely 
impact the overall schedule to complete these other efforts. 
This new responsibility requires significant resources and was 
not anticipated at the time the department established the 
three primary security initiatives in 2016. With this in mind, 
we have been working closely with the Capitol Police Board, 
House Sergeant at Arms, and oversight committees, and our chief 
of operations, and CAO to help develop a plan to ensure this 
mission is successfully enacted as well as receives the 
necessary resources for implementation. Once the department has 
had the opportunity to benchmark and analyze the relevant data 
and trends following the addition of the new House Office 
Building to our critical security infrastructure, we will 
continue to look for efficiencies and examine the potential for 
reapportioning personnel as appropriate.
    I look forward to discussing many of these new initiatives 
with you, and I am happy to answer any questions you should 
have.
    [The statement of Chief Verderosa follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    The Chairman. Thank you very much, Chief Verderosa.
    Committee Members will now ask questions of the witnesses. 
Each Member is allotted 5 minutes to question the witnesses. To 
help each Member track the times, we will use the same timing 
devices. And I will begin by recognizing myself for 5 minutes.
    Dr. Hayden, if I can start with you, I want to again thank 
you for taking the time to meet with us this afternoon. And I 
am always amazed by the Library's statistics: 164 million items 
in all formats and languages, 1.8 million onsite visitors, and 
93 million visits to your website. I mean, the numbers go on 
and on, and they are very impressive. Your testimony describes 
a number of initiatives that the Library will be focused on 
during the remainder of the fiscal year and into 2018. What do 
you anticipate as your challenges as you meet those goals?
    Ms. Hayden. In meeting the increasing demand for the 
Library's resources, the challenge that I share with some of my 
colleagues here, in fact, have quite a bit to do with the 
technological capacity as well as the modernization of many of 
our operations. I mentioned that Mr. Barton has joined us, and 
quite a bit of progress has been made. And so that will be a 
continuing need as well as storage capacity for those 
collections will remain something that the Library has a major 
responsibility for these unique collections and items that make 
up quite a bit of that 162 million items.
    The other challenge is to concentrate on making sure that 
the Library is run efficiently and effectively, centralizing a 
number of operations, particularly information technology. And 
also to--and this challenge is actually an opportunity to make 
more people aware throughout the Nation in particular of the 
resources that are available already and digitized for use in K 
through 12 classrooms, teacher education outreach, and letting 
people know about what the Library already has. We have been 
called one of the best kept secrets. And we don't want to be 
secret anymore.
    The Chairman. Well, I can assure you that you are known by 
the Members and our staffs. And coming off what was a very 
successful new Member retreat in January, how will CRS continue 
to support our new Members and their staff and other Members, 
of course, that have been here? And if you could just talk for 
a moment about how you are planning on improving the CRS to 
better assist Members and staff.
    Ms. Hayden. The Congressional Research Service, I have 
often called it the special forces of the Library. Their 
primary mission is to serve Congress and its staff with the 
best analysis on policies and topics up-to-date. The 
strengthening of the subject specialists in Congressional 
Research Service operations is key. And we are working to make 
sure there is successful recruitment and retention of those 
subject specialists, as well as making sure that the 
Congressional Research Service has the information technology 
capacity to serve Congress and staff in the latest ways.
    The Chairman. All right. Well, you know, you've talked a 
lot already about information technologies and what you are 
doing to invest in that. And so, as we look at that, of course 
I have got one example here in my hand, the Library is 
partnering with the Bureau of Engraving and Printing to help 
provide U.S. currency readers to sight-impaired individuals to 
help identify their currency. Unbelievable. Are there other 
initiatives that perhaps you could highlight today?
    Ms. Hayden. And thank you for demonstrating a wonderful 
device that is allowing people who are visually challenged to 
operate seamlessly in the world. And the National Library 
Service for the Blind and Physically Handicapped is an 
important smaller part of the Library, but so important. The 
Library Service for the Blind operation is looking at even more 
capacity in handheld devices that will allow braille on demand. 
And so, right from an email, the braille will be touchable and 
instantaneous. So, instead of working and waiting for the 
translation, it will be instantaneous. So that is just an 
example of what technology can allow the Library to do for all 
citizens.
    The Chairman. Thank you very much, Dr. Hayden. My time has 
expired.
    I will now recognize the Ranking Member, Mr. Brady, for 5 
minutes for questions.
    Mr. Brady. Thank you, Mr. Chairman.
    I just have two quick questions I would like to ask all 
four panelists and have you each respond briefly. You know, 
information is power, and our computer systems and networks are 
under attack every day. I have had briefings from the CAO and 
the Sergeant at Arms. So, before you submit your budget 
requests, I would like to know, what do you need to protect 
your information systems? And do you have all the money and 
people that you need to protect them while you are protecting 
us?
    Unrelated but equally as important, I would like to get a 
snapshot of your relationship with your respective unions. I 
hear from them that things are not going well, and it has been 
relatively quiet. I am a little worried about that. But I 
recently--but I wanted to know from each of you that you are 
committed to a good relationship with your organization 
workforce.
    Mr. Ayers, you are very little, but I know you got a great 
relationship.
    Dr. Hayden, we have talked in the past, and with your 
predecessor, we did a lot of work there with a lot of your 
security people there. And we work well with them. Director 
Cooks, you have about 18 of them, I think, because every one of 
them is in my office every day just about. But they seem to be 
happy. So I hope that you are working well with them.
    And, Chief, I know we have a new Gus Papa back there, a new 
minted Chairman, you call him. I call him President of the 
Union. And I probably shouldn't say this, but he said some nice 
things about you. So I think that--but that is not a real big 
deal because your predecessor nobody said nice things about, 
including me. But you are doing an excellent job there. And the 
proof of it, you have all your job security people here behind 
you all. So I guess you have--I hope you continue to have a 
good relationship.
    So, real briefly, just if you could respond, all four of 
you briefly. Thank you.
    Ms. Hayden. Well, I will start because I am the newest. And 
I have been able to have several meetings and establish regular 
meetings with the Library's three unions. And they have been 
very productive because we are working on things that will 
allow us all to work together and be proactive. And there have 
been some exciting things coming. I was even invited to the 
holiday party. So I think that is a good start in terms of 
that. But we are working very much together on it.
    And with cybersecurity, the Library is participating in a 
legislative branch cybersecurity working group and has a fiscal 
year 2017 request in for strengthening our cybersecurity 
capacity.
    Ms. Vance-Cooks. Okay. Lady next? Okay. Great. Two things: 
In terms of cybersecurity, we recently had approval of $2 
million to address that issue. And we are using it to address 
it in terms of enhancement programs as well as implementation. 
To give you an example, for an enhancement, we are going to 
truly try to strengthen our firewall configuration and our 
router configuration and our DDoS configuration as well. And 
then, in terms of implementing new things, we are looking at 
the inside threat capacity as opposed to just the outside 
threat because it does matter. You can get it from both the 
outside as well as internal.
    In terms of the unions, we have 13 unions. Okay? And the 
good news story is that our unions and our management work well 
together because we want the same thing: we want the GPO to be 
a good place to work. And I am proud to say that, just last 
week, we signed another wage negotiation. We are in the middle 
of wage negotiations for a 5-year period. We work well 
together. I would characterize it as productive.
    Chief Verderosa. Thank you, sir, for the questions. In 
terms of cybersecurity, my CIO and our CISO have direct access 
to me and the executive team. We participate actively in the 
leg branch organization. We also are going to focus in this 
fiscal year on vulnerability and risk threat management 
training, threat assessment, and sharing with our partners, not 
only in the leg branch, but with other Federal partners. I 
think we have a great plan. I think we are going to leverage 
some cross-servicing within economies of scale within the leg 
branch.
    And in terms of the unions, I have two unions: The 
Teamsters and the FOP. I think, throughout the course of my 
career, I have always had a good working relationship with both 
unions. Officer Papathanasiou and I go back a long time in 
terms of working the House division together. And I think we 
both--we see opportunities rather than impediments. And I think 
we work wherever we can to come to common ground and fix the 
issues. And, frankly, I value the working relationship because, 
at the end of the day, we are both in this for the same thing: 
to have the best treatment for our employees and to get the 
most effectiveness and efficiency from the workforce. And I 
think we both are aligned very closely on that goal. And I have 
a great working relationship with Karen Gray-Thomas, who is our 
spokesperson for the Teamsters. And, you know, frankly, we have 
a great workforce, and I continue to look forward to working 
with both unions.
    Mr. Ayers. And thank you, Mr. Brady.
    We too have a strong IT system in place that is backed up 
at the alternative computer facility. And we use an active-
active system. And throughout the day, our network may be run 
out of a building here on campus or a building there, and no 
one knows the difference. It is quite amazing to me.
    From a cybersecurity perspective, you know, we have done 
multiple penetration tests. We have had the House IG review our 
system. We are implementing the National Security Agency's top 
10 mitigation strategies. We are pretty comfortable with where 
we are on that. And like Ms. Vance-Cooks, we too have multiple 
unions that care for our employees, and we have collective 
bargaining agreements in place with them. I meet and my deputy 
meet quarterly with all of our unions. Our unions are staffed 
with really top-notch officers. And we have a great working 
relationship, open, honest, and transparent, and respectful 
discussions.
    Mr. Brady. Thank you, Mr. Chairman.
    And thank you, Mr. Ayers, for Bill Weidemeyer. You got a 
gem there.
    Mr. Ayers. I am going to regret that, Mr. Brady.
    Mr. Brady. Absolute professional.
    Mr. Ayers. Thank you.
    Mr. Brady. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Brady.
    The Chair now recognizes the Vice Chairman for the 
Committee, Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman.
    Chief Verderosa. I know you mention in your testimony about 
the new security protocols and screening in and around the 
House Office Buildings and the garages. I would like your--you 
know, a little more--if you could go into a little more of what 
that has meant to our ensuring that there is a secure perimeter 
around our Capitol Buildings and in the garages. And I want to 
know if, you know, are there some standard security protocols 
that you guys follow at the Capitol Police at these screenings 
checkpoints? And also, are we achieving consistency throughout 
the Capitol complex and vehicle entry points with the screening 
process that you guys have extended?
    Chief Verderosa. Certainly. I will answer the second part 
first if I may. We strive for consistency in everything that we 
do. I want the staff and the Members to know what to expect 
when they enter into the buildings. And we have been training. 
We actually, several years ago, revamped our entire security 
screening process to a unified approach. So the way you get 
screened in the House Buildings is the same as you get screened 
at the Senate Office Buildings as well. That entails looking at 
best practices in the industry. We partnered with TSA and the 
Marshal Service. And we looked at what we had already been 
doing to develop our protocols. And we have standardized this 
process. It is a quite lengthy. We have a 40-some-odd page 
directive that deals with virtually every scenario that you 
could have in screening. So, obviously, it is closely held. But 
we look at the division level supervisors going out and 
ensuring that they provide the feedback necessary for the 
officers in the field. We also bring our officers in for 
periodic retraining and recertification in security screening. 
It is the same with the automobile checks although the closer 
you get to the Capitol, the more stringent the checks become. 
We want to keep the threat as far away as we can.
    Mr. Davis. Well, speaking of that, Chief, you know, what 
does your current security posture look like within the Capitol 
Police?
    Chief Verderosa. We are always operating at a very high 
level. So, when we have major events around the world, 
obviously, we are closely connected in the intelligence side, 
on the high side, and we are also working with our partners and 
various other institutions to determine what in fact the known 
intelligence is, what are the best practices that they are 
seeing, and we leverage all that information and provide that 
information through lookouts, BOLOs, intelligence bulletins, 
and other various means of communication to all of our 
employees.
    When we see events around the world, obviously, we are 
looking for copycat and other types of information that may 
lead us to believe that a threat may be imminent, warranted, to 
take additional information. That is particularly when you see 
a show of force, a more intensive show of force.
    But we are always operating at a very high level. We have 
assets in and around the perimeter, both physical security 
assets, operational assets in terms of personnel that are 
assigned to various access points. Some are seen, and some are 
not seen. We are employing an additional--as one of the 
initiatives with the Board, the Capitol Police Board, we are 
employing additional assets outside of access points. For the 
next several years, we will be building up our team to provide 
eyes-on outside doors. As opposed to having them having the 
fight at the door, we are going to try to keep the battle 
outside the buildings.
    Mr. Davis. And that is here and around the Capitol.
    Chief Verderosa. That is correct.
    Mr. Davis. Can you give an assessment of how is your team 
working with increased threat levels maybe out in the rest of 
the country and in Members' district offices? How do you 
coordinate any activity that could be viewed as a threat that 
you hear about? How do you coordinate your activities with 
local law enforcement?
    Chief Verderosa. That is a great question. And we have a 
very active Protective Services Bureau. I have approximately 
35, 40 investigators that look at intelligence and threat 
assessment. And what they do is they have outreach through the 
Sergeant at Arms Office for not only planned events, but we are 
also monitoring active social media, we are monitoring all 
sources of both classified and unclassified information to 
determine whether or not a Member of Congress or a Senator is a 
target of demonstration activity, is a target of an nefarious 
effort, a criminal act. And we also provide--on the positive 
side, we provide--we go out and actively do security awareness 
briefings. We coordinate threat assessment briefings for not 
only staff here on the Hill but district offices as well.
    Mr. Davis. Well, thank you, Chief. My time is up, but I do 
want come tour that shooting range still too.
    Chief Verderosa. Absolutely. We are ready. We have been 
operating for about 6 months.
    Mr. Davis. Thank you.
    The Chairman. Thank you, Mr. Davis.
    And now the Chair will now recognize Ms. Lofgren for 5 
minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And I am glad to be getting an early start on oversight 
this year. I think it is a good thing. And it seems that some 
of the issues in past years have been resolved in many cases. 
So that is very encouraging. And we will continue to work with 
these wonderful leaders as the year goes on.
    Dr. Hayden, it is a thrill to see you here, the new 
Librarian of Congress. You were introduced as the first female 
Librarian of Congress, first African American. But I think you 
are the first librarian Librarian of Congress. Maybe not. But 
it has been a long time.
    Ms. Hayden. In 50-something years.
    Ms. Lofgren. Yes. Been a long time. And it is great to have 
a librarian's librarian there.
    You in your testimony identified the need for IT upgrades. 
And I am so appreciative that that is a focus that you have. 
And the staff works very hard. At least the staff I have met 
over there love the Library; they are dedicated to it. But the 
technology is antiquated. In particular, I am interested in the 
Copyright Office, which has antiquated--I mean, there is a lot 
that needs to be done in terms of upgrading that technology. Do 
you feel you have the resources at this point necessary to do 
those upgrades? Or do you have a strategy to get to where you 
think we need to be there?
    Ms. Hayden. There is definitely a strategy. And I want to 
emphasize the helpfulness of the GAO reports and inspector 
general recommendations that provide the roadmap and help with 
our strategy and overall IT strategy. The Copyright Office has 
a number of unique IT needs that can be supported, and Mr. 
Barton, who is here with me today, the CIO for the Library, has 
been able to really coordinate the Library's strengthening 
infrastructure, technology infrastructure, with the special 
needs of not only the Copyright Office but CRS, for instance, 
that has specialized needs. And so the support, and there are 
fiscal year 2017 and will be 2018 requests to make sure that 
the modernization--IT modernization for the Copyright Office 
continues, particularly in the areas of registration, copyright 
registration, and a searchable copyright database of the 
records. That is a major focus.
    There are 32 million copyright records. This is getting a 
little in the weeds with the--like a card catalog that have 
been digitized, but they are not searchable. And so the main 
focus will be making sure that the Library's IT infrastructure 
can support those special needs.
    Ms. Lofgren. That would be a major advance in terms of----
    Ms. Hayden. Yes.
    Ms. Lofgren [continuing]. Protecting intellectual property.
    Ms. Hayden. Yes.
    Ms. Lofgren. That would be very----
    Ms. Hayden. For the users and----
    Ms. Lofgren [continuing]. Which this office is key for 
that.
    Ms. Hayden. Yes. And I think people might not realize how 
vital the Copyright Office is to the creative input and output 
of the Nation.
    Ms. Lofgren. Speaking of that, I know you are in the 
process of hiring a new permanent registrar. Any timeline on 
that process?
    Ms. Hayden. The Library asked for public comment on the 
aspects of the registrar's not only qualifications and what 
might be needed in the next few years, but also the office 
itself. We received almost 5,000 public comments in a little 
over 5 weeks. And so we are reviewing those, and we will be 
working to incorporate some of those comments and suggestions 
into the formal opening up of the position. So very shortly you 
should be seeing something.
    Ms. Lofgren. Very good. I see my time is almost up. Let me 
just close by talking to the Chief.
    I think when we talked, I had a complaint that the 
screening on the Senate and the House side seemed discordant. 
It is greatly improved. And now I think it is consistent. So I 
want to thank you for attending to that. I know there are a lot 
maybe things that are bigger on the scene. But it is nice to 
have consistency in both bodies. And I appreciate that very 
much.
    Mr. Chairman, I would yield back.
    The Chairman. Thank you, Ms. Lofgren.
    The Chair will now recognize Mrs. Comstock for 5 minutes.
    Mrs. Comstock. Thank you, Mr. Chairman.
    I wanted to also thank Dr. Hayden for her interest in the 
online work with the Library. And I wanted to--I know--thank 
you for coming by with your staff and discussing that and our 
shared interest in how we can use technology to really make the 
Library's vast collection more available.
    And just for the benefit of those that might be watching C-
SPAN, but also could you maybe paint a little--a better picture 
on how we can use this from, you know, from the children's 
events that you have and the collections available there on up? 
And just, you know, maybe give a little bit more vivid picture 
of how--you know, the possibilities of how we can utilize that 
going forward.
    Ms. Hayden. And as a former children's librarian, I have to 
say my eyes light up when I think about the fact that we are 
now able to live stream programming from Washington, D.C., to 
anywhere in the world. And we just started that this past 
Saturday when we opened the Young Readers Center in the 
Jefferson Building on Saturdays. And we live stream to four 
States, and had direct responses from the young people in the 
audiences. They asked the author questions and they were able 
to get responses. And the children in the Jefferson Building 
were able to wave and do all kinds of things with the others. 
So that was an experiment, and we are expanding that.
    We already have so much online for K through 12 educators, 
teaching with primary sources. And one of my first experiences 
in--and I mentioned earlier that I have been amazed at all of 
the wonderful things that are available at the Library, a 
scanner that is the size of a queen size bed that can scan rare 
and old maps that could never be put on display or used that 
are now able to be scanned and then downloaded and printed out 
and used by anyone.
    Also, traveling exhibits are coming and downloading all 
types of photographs. And my most recent experience was with 
the inauguration display that we had where we had the 
inauguration route of Abraham Lincoln. And that only comes out 
maybe once every 5 years. We were able to duplicate that and 
people could touch it and trace the route. So there are so many 
possibilities that technology makes possible to spread the 
Library of Congress throughout the world, but definitely 
throughout the Nation.
    Mrs. Comstock. All right. Thank you. And as a daughter of a 
librarian, I do appreciate having a librarian in this position.
    Now, you said it was--the program was shared with four 
States and you are expecting to grow that. Are there--if people 
want to participate in schools, they contact you?
    Ms. Hayden. Oh, yes. Yes. Schools, community centers, rec 
centers. And particularly in rural areas that might not have 
the opportunity to have Newbery and Caldecott, award-winning 
authors that are there. So we really are going to focus on 
rural areas, and making that also connect to our traveling 18-
wheeler that I am working on now. Yes, an 18-wheeler, library 
on the move, that will be on both coasts and in the middle that 
can just pull up in Bakersfield, anywhere, and you can interact 
with Library materials and have dedicated staff that can 
explain things too. So it is an exciting time. Libraries are--
--
    Mrs. Comstock. Thank you. Thank you. And I really 
appreciate those efforts.
    And I yield back my time.
    The Chairman. Thank you very much.
    And the Chair is happy to recognize our new member to the 
Committee and to Congress, Mr. Raskin, for 5 minutes. Welcome.
    Mr. Raskin. Mr. Chairman, thank you for your very warm 
welcome, and thank you also to Mr. Brady for his warm welcome.
    As the Representative of the Eighth Congressional District 
which borders the District of Columbia and a native to this 
area, it is quite an exceptional thrill and honor for me to be 
on this Committee overseeing our extraordinary Capitol campus. 
I am delighted to say I have been able to draw on the resources 
and the work of all of your various offices already in just 
about a month in office. And all of you I want to thank for 
being very responsive.
    A special hello to Dr. Hayden, who was in Maryland before 
she came to the Library of Congress. And my father-in-law, who 
was a librarian for a long time, got the chance to meet Dr. 
Hayden and described it as like meeting the Beatles.
    So I have got one very quick--pretty much a yes or no 
question for all of you, and then I have got a couple questions 
for Dr. Ayers. So as a local representative, I have been 
hearing from a number of my young constituents who have been 
disappointed in the last several weeks that they had jobs they 
thought they were going to get in different parts of the 
Federal Government, but because of the hiring freeze, they are 
now closed out. And I just wanted to make sure that each of 
your offices is actually open for young people who are looking 
to be in the public service now. And I don't know if we could 
just go down the line. Perhaps, Chief, you could start.
    Chief Verderosa. Yes. We are hiring as needed based on our 
position availability.
    Mr. Raskin. Terrific.
    Ms. Vance-Cooks. We are very interested in hiring pathway 
interns. Okay? And I notice in the latest document on the 
hiring freeze that we can do that. And so you will see that.
    Mr. Raskin. Terrific.
    Ms. Hayden. Very similar. And also volunteer opportunities 
that will lead and position young people to be right there and 
have the experience when the positions are open. So we also 
have internships and fellowships.
    Mr. Raskin. Gotcha. You mean when the hiring freeze is 
lifted, the position----
    Ms. Hayden. When there is an available position, they 
have--already have experience and have worked in the Library.
    Mr. Raskin. Gotcha.
    Mr. Ayers. And we are continuing to recruit new employees, 
and also we have a summer intern program where we recruit about 
100 or more summer interns to work for about 12 weeks for us. 
And that program is usually announced in the month of February 
as well. And we will start them in May or June.
    Mr. Raskin. Terrific. Dr. Ayers, let me stay with you for a 
second, if I could. And I am so impressed by the work of your 
office, and all of us get to enjoy working in this awesome and 
most beautiful Capitol campus of any democracy or any nation on 
Earth. It is really extraordinary. So I regret that I have to 
raise a matter with you that is an issue not of your own 
making. But I wanted to take this opportunity to ask you about 
this whole incident that has taken place with the removal of 
one of the paintings that a Member of Congress brought forward 
as part of the Congressional Art Competition.
    And I want to know whether, first, is it correct that this 
is unprecedented, that there has never been a removal of a 
piece of art from the Capitol campus on political grounds 
before?
    Mr. Ayers. That is my understanding as well.
    Mr. Raskin. Okay. And so my understanding, and, again, 
correct me if I am wrong, was that up until that removal, we 
basically had the American rule of free speech. If you look at 
a painting or a sculpture and you don't like it, you just go to 
the next one, and maybe you like that one more, or you go to 
the next one, but you don't remove it or petition for its 
removal. Was that basically the rule up until this took place?
    Mr. Ayers. Well, again, I am not familiar that a piece of 
artwork was ever moved. There has been public perceptions about 
pieces of artwork. I can recall a statue of George Washington 
by Greenough, you know, more than 100 years ago that was placed 
in different places in the Capitol building because the 
public's perception of President Washington. And ultimately, 
that sculpture was moved out of the Capitol and today is in the 
Smithsonian.
    Mr. Raskin. But are you now supposed to be regulating the 
potential political incorrectness or offensiveness of art 
because of this incident?
    Mr. Ayers. No, I wouldn't say that. I think this particular 
artwork competition that happens on an annual basis, there are 
a set of rules, that it is my responsibility to enforce those 
rules. And so just that narrow focus. I think if you are 
talking a broader view of sculpture or artwork, that really 
comes under the Joint Committee in the Library.
    Mr. Raskin. I see. Because my office people have raised 
with me questions of other works of art now as being offensive 
or politically incorrect in the wake of the removal of that 
piece of art. So I appreciate it. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Raskin. And again 
welcome.
    At this time, the Committee will recognize Mark Walker for 
5 minutes.
    Mr. Walker. Thank you, Mr. Chairman. Thank you to our panel 
for being here today. A little bit late in the day, but 
appreciate your willingness to come out.
    I have a few questions, if I could direct them to the 
director of the GAO, Ms. Vance-Cooks, if that is okay, just for 
a few minutes. I was looking at your resume, and if this 
doesn't work out, it looks like your experience in the 
insurance industry--we might could use you around here these 
days. But we--quite impressive. It certainly is.
    I do have a few questions regarding certainly the printing 
office, if I could do so. As you know, we hear a lot about 
openness and transparency in--in both sides, really, as far as 
that being our goal, certainly striving to do so. Is there 
anything concrete or something that you would hope to do this 
upcoming year that would promote those transparency goals, 
anything in the works, and would you be okay to speak to those?
    Ms. Vance-Cooks. Sure. Thank you for the question. In fact, 
there are several things that we are doing right now that I 
would like to highlight.
    The first has to do with digitization of content, 
especially historical content. This is critical for openness 
and transparency. As we sit here today, I am proud to report 
that we are collaborating with the Library of Congress, friend 
right here, to digitize the bound Congressional Record all the 
way back to 1873. And we are also working and collaborating 
with the OFR to digitize the Federal Register all the way back 
to its inception in 1936. So right away, you can see that we 
have a lot of historical digitized content that is about to go 
out into the public.
    Secondly, with our govinfo FDsys digital database, it is 
important to remind everyone that this is a huge repository 
database that we build every single day. Every time we publish 
a document, we feed it into the FDsys govinfo database. And 
that is why it is growing exponentially. And as we sit, it has 
1.6 million titles. Over 40 million of those documents are 
retrieved and downloaded every month across the world. So you 
can see that when we start to increase that database, we are 
also increasing openness and transparency.
    And then we also are doing a lot of work with XML bulk 
data. We actually are a member of the legislative branch bulk 
data task force. And we worked very diligently with the members 
to make some of this data available in XML, specifically the 
bill text, the bill summary, and bill status information. The 
beauty of this is simple. When you have XML data available, the 
transparency advocates love it because they can take that data 
and they can repackage it. They can repurpose it and create a 
different product. That too allows us to go into openness and 
transparency.
    And last but not least is the fact that we are working 
diligently with a lot of libraries across the Nation in our 
FDLP program to preserve some of the historical collections 
actually in tangible format. We have what we call preservation 
stewards. And were are working with them. We have three 
already. One is in Kentucky. And they have agreed to preserve, 
for example, all of the documents for the WPA. That is major. 
That is going to be wonderful when we can really spread it out 
across the United States. So I hope that is helpful.
    Mr. Walker. I promise we didn't rehearse this before. Very, 
very good answers there.
    Ms. Vance-Cooks. Thank you.
    Mr. Walker. And you really touched on the second one, my 
question, as far as how often do you maybe review this process 
to make sure that you are doing the digital world. But maybe 
let me drive to this. Any work being done as far as projected 
cost savings by moving this from the paper world to the digital 
world? Have you looked into that at all?
    Ms. Vance-Cooks. We are starting to look--that is a great 
question too. Because we are starting to look into it and 
trying to figure out how to monetize digitized content. And 
that is pretty difficult at this point. But what we can see is 
that when we no longer print the tangible copy, we are having 
great savings. And a good example, of course, is when we talked 
about the ZMR press, for example. When we actually installed 
that press and we started to realize that we were printing 
faster and having less waste, we realized that we could reduce 
the rate that we normally would charge. And we reduced the rate 
by 7 percent. So that is an example of how we can attempt to 
monetize----
    Mr. Walker. Sure. Let me squeeze one more thing in here 
just for time purposes. If we are reducing cost savings, it may 
be sometimes--I know there is a lot of people have been scoping 
out the property over there. Is it possible at some point that 
this would be a reduction in size as well? And that would be my 
last question. I will let you wrap it up there.
    Ms. Vance-Cooks. You mean a reduction in the employees?
    Mr. Walker. The actual physical property, the actual 
employees, et cetera. Yes.
    Ms. Vance-Cooks. Well, right now, we are sitting with 1,750 
employees, the lowest we have had in a century. But what we 
have been doing with the space is consolidating our members or 
our employees into certain areas of the building, and we have 
been renting out the rest. In fact, we rent out space to the 
Architect of the Capitol, and we rent out space to Chief of 
Police. We rent out space to the International Commission on 
Religious Freedom and the Senate Sergeant at Arms. And later on 
this year, OFR is going to move into our building, which is 
great because we do a lot of work with the Federal Register. 
And also NARA has asked for quite a bit of space for their 
archives. We are going to archive their legislative documents.
    Mr. Walker. Thank you, Director Vance-Cooks.
    Mr. Chairman.
    The Chairman. Thank you, Mr. Walker.
    The Chair will now recognize Mr. Smith for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman. Thank you for the 
agency heads here today. I appreciate your service, not only to 
those of us here on the panel or even all of Congress, but to 
the American people.
    To Mr. Ayers, thank you for outlining in your testimony. I 
was wondering if you could perhaps elaborate on the maintenance 
needs and obviously deferred maintenance. We have some projects 
underway now, whether it is Cannon renewal or the Rayburn 
parking garage, that kind of separated themselves perhaps from 
some other deferred maintenance projects and how you prioritize 
addressing these projects, especially as it relates to health 
and safety issues.
    Mr. Ayers. A great question. And we have a really mature 
project prioritization process in place that helps us 
distinguish and bubble up the most important priorities to the 
top of our Capitol improvement project list. And we will look 
at deferred maintenance and Capitol renewal, capital 
investment, and Capitol construction. And our algorithm moves 
deferred maintenance to the top of that list.
    So the theory that you want to take care of what you have 
before you build new holds true in our project prioritization 
process. But not only that, we look at mission and economics 
and energy and environmental stewardship, historic 
preservation, regulatory compliance. All of that comes into 
this prioritization process. And we then will filter those 
projects out by whether we can do them, are we ready to execute 
them, how critical they are to the functioning of the Congress 
and the like. And this has been in place for a number of years. 
And it has really been a fantastic tool both for us to be able 
to put forth to the Congress what we believe are the most 
important projects, but also for the Congress to use to 
validate a process that we have gone through to ensure they are 
making the right investments.
    Today, our deferred maintenance stands at--or backlog of 
deferred maintenance stands at $1.5 billion and continues to 
grow each year. Obviously, from a strategic perspective, we 
have got to continue to work to drive that down. Deferred 
maintenance should never be zero, nor should it be $1.5 
billion.
    Mr. Smith. Sure. Can you give us an update on the Rayburn 
parking and Cannon renewal? Are we on time and otherwise?
    Mr. Ayers. We are, both on the Rayburn parking garage which 
we recently kicked off. It is on time and on schedule. And we 
are looking forward to continuing to work with this Committee 
who has been really helpful in kicking off that first phase, 
the first of four phases in the Rayburn garage. And each of 
those will take a year and a year and a half. So this is a 
multiyear, more than $100 million investment in that building. 
And the ability to reach out to members and communicate what is 
going on has been really invaluable for us working with this 
Committee.
    Similarly, on the Cannon renewal project, you know, we have 
another 8 years to go in that--in the renewal of that building. 
We remain on budget. We remain on schedule. And looking forward 
to continuing to work with this Committee to keep members 
informed of the progress of that work.
    Mr. Smith. All right. Thank you.
    I yield back.
    The Chairman. The Chair will now recognize Mr. Loudermilk 
for 5 minutes.
    Mr. Loudermilk. Well, thank you, Mr. Chairman. And thank to 
all our panel for being here.
    And spending 30 years of my life in the IT sector, I have a 
lot of concerns, as many do, with cybersecurity and access to 
information. And in our jobs, that is a balance, providing the 
access to public and transparent information, but at the same 
time protecting the information that should be protected. 
Unfortunately, the Federal Government has become notorious 
throughout the Nation as being the most insecure of most of 
major organizations in this Nation.
    Prior to coming to this Committee, I served on the Science, 
Space, and Technology Committee, which we conducted several 
investigations into cybersecurity breaches. And I remember 
asking the inspector general after one: How would you rate the 
Federal Government's cybersecurity posture on an elementary 
school grading scale? And he said D minus, which was of grave 
concern. So I know we do have a lot of work to do there. So 
most of my questions will be geared around that. I do have a 
lot of questions. And what I don't get to, because of time, we 
will submit for the official record, if that is all right, Mr. 
Chairman, but--
    The Chairman. Yes, sir.
    Mr. Loudermilk. And I do know that many of you are making 
strides in that direction. And, Dr. Hayden, thank you for 
coming by our office. I really enjoyed our chat. And really 
excited about you being on board. And I know that you are 
already taking steps in moving in the right direction following 
a lot of the IG's initiatives or recommendations. I got a 
couple of questions, though, just for clarity, so I can 
understand.
    I understand the centralization that you are going through 
with the IT, and I commend that. I think that is very 
important. A lot of organizations get into trouble because they 
don't centralize. But in the memorandum that was sent out 
recently, you stated that top level supervisors of staff 
conducting IT activities throughout all service units will 
report through the CIO. Those not currently reporting to the 
CIO will be placed on a detailed assignment to the CIO. My 
question is what type of activities are those that you are 
realigning or restructuring to the CIO?
    Ms. Hayden. Centralization, especially in an organization 
like the Library of Congress that has several very mission-
oriented areas--copyright----
    Mr. Loudermilk. Right.
    Ms. Hayden [continuing]. CRS, Library services, National 
Library for the Blind and Physically Handicapped--those mission 
critical aspects will be protected and maintained with IT 
centralization. The centralization centers more on security and 
making sure that there is cross-departmental coordination of 
security as well as procurement and coordination of general 
effort. There are opportunities for lapses in security when you 
have siloed IT departments that are not even working together.
    And so the Library of Congress in that memo that you 
referred to really--and this was a very pointed GAO 
recommendation--needed to centralize IT aspects of operation 
without physically, in some instances, removing the people from 
their actual--the CRS people are still in--located in CRS, and 
copyright. They report through----
    Mr. Loudermilk. But functionally, they are working for----
    Ms. Hayden. Functionally, they----
    Mr. Loudermilk [continuing]. Copyright Office.
    Ms. Hayden. Right. And you need that.
    Mr. Loudermilk. But operationally they report to this CIO 
so----
    Ms. Hayden. Right. And also an important aspect, and this 
was another GAO recommendation, is a project management unit. 
So that if, for instance, CRS has a specialized IT need and 
they are contracting out for a project, that there is a 
centralized project management office that is overseeing all IT 
projects and just being quality control on that.
    Mr. Loudermilk. Okay. And I appreciate that, because 
working in this field we worked a lot of businesses that did 
not have centralization. And you had aspects--IT resources in 
other departments that weren't under the direction of the CIO. 
Therefore, it is hard to implement cybersecurity and updates 
and those things that are important. So--and I think I see your 
CIO nodding in agreement with this.
    Ms. Hayden. Yes. Mr. Barton. Yes.
    Mr. Loudermilk. I agree with that. And thank you so much.
    Ms. Hayden. Thank you.
    Mr. Loudermilk. Look forward to working with you.
    Chief.
    Chief Verderosa. Yes, sir.
    Mr. Loudermilk. Similar type questions. But I know that 
from a--from my experience in working in the IT field, 
everything is risk management. You know, you put--you can put 
the most secure network system in the world, but it is 
unuseable, so you have this balance. How--what role, that you 
can speak of, does the Capitol Police play in our IT 
infrastructures predominantly for the House of Representatives?
    Chief Verderosa. Well, in reference to the House, we are 
more of an enforcement when there is a violation. The House has 
a chief administrative officer who controls the IT areas and 
how they interact with each individual employing office. So we 
do partner on the legislative branch cross committee in terms 
of sharing information, looking at ways to combine efforts in 
terms of security, training. Of course, we are always our worst 
enemy when it comes to our weakest links are our employees that 
are falling----
    Mr. Loudermilk. Right.
    Chief Verderosa [continuing]. Victim to phishing 
expeditions and those types of things. So I think that across 
the enterprise, the entire leg branch, we have a very good 
working group. We don't control--we control our own and our own 
infrastructure, both classified and unclassified, and we work 
very closely with our inspector general to close audit 
recommendations in terms of whether it is a system issue on our 
financial statements or whether it is an IT specific 
enterprise.
    Mr. Loudermilk. Thank you.
    Mr. Chairman, may I close with one quick question for the 
Chief just to bring closure to that or----
    The Chairman. Unless Mr. Brady objects, you may ask the 
question.
    Mr. Loudermilk. Understanding you have an investigatory 
role there, does the Capitol Police have investigators that are 
forensic experts in the IT field for cybersecurity or is that 
something----
    Chief Verderosa. We do.
    Mr. Loudermilk. You do?
    Chief Verderosa. We do.
    Mr. Loudermilk. Okay. Thank you, Mr. Chairman and Ranking 
Member. I appreciate it.
    The Chairman. Thank you very much. And I want to thank each 
of you for coming today. This is a special place. And I know 
everyone in here is an institutionalist and respects it and 
loves this--what we do. And the only thing I would say is, you 
know, we are all in this together. So we really don't want--we 
don't like surprises. Do we, Chief? Nobody likes surprises. So 
if there is a problem or something is coming up, talk to us 
about it and give us that advance notice.
    But again, thank you. Thank you to the Members for being 
here.
    Without objection, this hearing will recess until tomorrow 
where we will hear from our second panel of witnesses, and we 
will also have a markup.
    [Whereupon, at 6:22 p.m., the Committee was recessed, to 
reconvene on Tuesday, February 7, 2017.]

                   TUESDAY, FEBRUARY 7, 2017

    The Committee met, pursuant to call, at 11:09 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Walker, Smith, 
Brady, and Raskin.
    Staff Present: Sean Moran, Staff Director; Katie Patru, 
Deputy Staff Director for Outreach and Communications; Kim 
Betz, Senior Advisor; Cole Felder, Counsel; C. Maggie Moore, 
Legislative Clerk; Erin McCracken, Communications Director; Rob 
Taggart, Deputy Legislative Clerk/Oversight; Alex Attebery, 
Staff Assistant; Jamie Fleet, Minority Staff Director; Matt 
Pinkus, Minority Senior Policy Advisor; Khalil Abboud, Minority 
Chief Counsel; Eddie Flaherty, Minority Chief Clerk; and 
Meredith Connor, Minority Staff Assistant.
    The Chairman. The Committee on House Administration will 
reconvene for the purpose of continuing its hearing on the 
operations and priorities of the House officers and legislative 
branch entities. As I indicated yesterday, the hearing record 
will remain open for 5 legislative days so that members may 
submit any materials they wish to include.
    A quorum is present. So we may proceed.
    I want to thank my colleagues and our second panel of 
witnesses for coming this morning to continue our discussion on 
priorities for fiscal years 2017 and 2018.
    Before we start, I want to thank our House officers for 
their hard work and partnership with our Committee during New 
Member Orientation, the transition into the 115th Congress, and 
especially for the incredible amount of work that went into the 
planning and preparation and hosting of the Presidential 
inauguration. We understand and appreciate the incredible 
undertaking that it was. And we commend you for the attention 
to detail and the precise execution of this event by your 
teams.
    As you know, while I am not new to the Committee, I do have 
a new role as Chairman. I look forward to learning about your 
priorities, your needs, and expectations for the year ahead 
during this hearing. As I said yesterday, we all share a common 
goal, and that is to serve the public, the Members, and their 
staffs. We can only accomplish that goal if we work together. I 
am going to keep this short so we can hear from our witnesses, 
but I want to thank you again for appearing here today.
    I would now like to recognize my colleague and Ranking 
Member of the Committee, Mr. Brady, for the purpose of 
providing an opening statement.
    Mr. Brady.
    [The statement of The Chairman follows:]
    Mr. Brady. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    I have no statement other than to thank our witnesses. I 
spent a fair amount of time with Paul and Phil recently, and as 
always, their judgment and professionalism has made this a 
better, safer institution.
    It is always good to see Karen, who is always available to 
our Members for whatever they need. Usually it is because they 
lost a card or whatever. But her team is professional and gives 
all the Members a lot of confidence in our legislative process.
    We are lucky to have these three working for the House.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Brady.
    Does any other Member wish to be recognized for the purpose 
of an opening statement?
    We are honored to have yet another distinguished panel of 
witnesses before us. Karen Haas was sworn in as Clerk of the 
House of Representatives on January 5, 2011. This is her second 
appointment to this position, having previously served as the 
House Clerk from 2005 to 2007. Ms. Haas has a strong working 
knowledge of the House, as she served on Capitol Hill as a 
legislative staffer, a Floor Assistant to a former Speaker, and 
a Staff Director for a House committee.
    Paul Irving was sworn in as the Sergeant at Arms of the 
United States House of Representatives on January 17, 2012, 
during the second session of the 112th Congress. He is the 36th 
person to hold this post since 1789. Mr. Irving previously 
served as an Assistant Director of the U.S. Secret Service from 
2001 to 2008 and served as a Special Agent with the Secret 
Service for 25 years.
    Phil Kiko was sworn in as the Chief Administrative Officer 
of the House of Representatives on August 1, 2016. This is the 
second time Mr. Kiko is serving as the CAO. In the mid-1990s, 
Mr. Kiko joined the team, the then newly formed CAO, as an 
Associate Administrator for Procurement and Purchasing, and 
helped establish the procurement office. Mr. Kiko has a long 
record of dedicated service both in the House and throughout 
the Federal Government. He has most recently served as the 
Staff Director and General Counsel for two House committees, 
including this Committee from 2011 to 2013. Mr. Kiko also 
worked in two other House committees and also served as Chief 
of Staff in a Member's congressional office.
    Again, we thank each of you for being here today and to 
share your upcoming testimony. The Committee has received your 
written testimony. At the appropriate time, I will recognize 
you for 5 minutes to present a summary of that submission. You 
know how the light system works. You have 5 minutes. When it 
gets to yellow, you have a minute left. And when you get to 
red, we just ask you to end sometime before the day is over and 
bring it in for a landing.
    The Chair will now recognize the Clerk of the House, Karen 
Haas, for 5 minutes.

STATEMENTS OF THE HONORABLE KAREN L. HAAS, CLERK, UNITED STATES 
    HOUSE OF REPRESENTATIVES; THE HONORABLE PAUL D. IRVING, 
 SERGEANT AT ARMS, UNITED STATES HOUSE OF REPRESENTATIVES; AND 
  THE HONORABLE PHILIP G. KIKO, CHIEF ADMINISTRATIVE OFFICER, 
             UNITED STATES HOUSE OF REPRESENTATIVES

            STATEMENT OF THE HONORABLE KAREN L. HAAS

    Ms. Haas. Thank you. Chairman Harper, Ranking Member Brady, 
and Members of the Committee, thank you for the opportunity to 
testify today regarding the priorities of the Office of the 
Clerk for the upcoming year. My staff and I appreciate the 
guidance and support we receive from the Committee.
    The primary responsibility of our office is to support the 
legislative process. We have just completed a successful 
opening to the 115th Congress, but there is much work to be 
done for the remainder of this fiscal year and next. We intend 
to continue our efforts to make the legislative process as 
transparent as possible, improve business practices, and look 
for efficiencies wherever possible.
    Two ongoing major projects, our website redesign and 
updates to the Electronic Voting System, should be completed 
during this year. The website redesign provides legislative 
data in a dynamic and user-friendly approach. It has robust 
search capabilities, more detailed vote data, and easy access 
from any device. We have been testing the site with internal 
House customers and expect to launch early this year. The 
updates to the voting system include new wiring, modernized 
voting boxes, and internal components, as well as improvements 
for the visually impaired user. We anticipate testing a 
prototype soon and hope to deploy in August.
    In our continuing effort to reduce overall printing and 
provide timely information, we released a beta version of a 
revised House telephone directory website. This website makes 
contact information publicly available and easily accessible. 
We are encouraging all offices to update their individual 
information as they incur staffing changes. Having information 
that is accurate and easily accessible will help drive users 
from the printed version to the electronic option. Over the 
last several years, we have cut the number of directories 
printed, and we expect to see more dramatic cuts as users 
transition to the electronic format.
    We have also been busy working with our partners, including 
the Office of Legislative Counsel and the Government Publishing 
Office, on a new and unplanned project. A newly adopted House 
rule, known as the comparative print rule, will take effect at 
the end of this calendar year. It requires that a document be 
prepared showing the changes to current law proposed by every 
bill, joint resolution, and amendment before they may be 
considered on the House floor. Although similar to the current 
Ramseyer rule, this new rule will apply to more legislation and 
require quicker turnaround than the existing rule. We have been 
meeting regularly to understand the scope of this project and 
determine how best to comply with this requirement. In 
particular, we are trying to determine how much of the work can 
be automated and how much will require legal staff to ensure 
accuracy. At this time, we are unsure of the impact that this 
project will have on our projects, staffing, and budget.
    In closing, I appreciate this chance to share our upcoming 
priorities for the next fiscal year. All the divisions within 
the Office of the Clerk diligently work together every day to 
provide support for the legislative process in the House of 
Representatives. We strive to do more with less, to increase 
efficiencies, and improve transparency while still providing 
top-quality service, products, and information to Members, 
staff, and the public. We enjoy our longstanding collaboration 
with the other House officers and look forward to continuing to 
work with their organizations and staff to provide support to 
the House community.
    I am happy to answer any questions. And thank you.
    [The statement of Ms. Haas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    The Chairman. Thank you very much.
    The Chair now recognizes the House Sergeant at Arms, Paul 
Irving, for 5 minutes.

           STATEMENT OF THE HONORABLE PAUL D. IRVING

    Mr. Irving. Good morning, Chairman Harper, Ranking Member 
Brady, and Members of the Committee. I appreciate the 
opportunity to appear before you to discuss the Sergeant at 
Arms' priorities for 2018 and beyond. Before beginning, I would 
like to say that it is truly an honor to have the opportunity 
to serve this institution, and I look forward to continuing to 
work with you.
    As Sergeant at Arms, I am responsible for the oversight of 
security matters which relate to the House of Representatives. 
I also serve as a member of the U.S. Capitol Police Board, 
which is statutorily charged with oversight of the U.S. Capitol 
Police. And I work with the Board to support the Capitol Police 
in its mission to protect and serve the Capitol community.
    My office has been involved in a number of very important 
new and ongoing projects, which I would like to highlight.
    First, the House garage security enhancement project is 
designed to move the entire Capitol complex closer to 100 
percent screening by bringing the House Office Buildings into a 
secure perimeter in line with the Senate Office Buildings and 
the Capitol. As you know, the first phase has been completed: 
staffing the Ford Garage, the Cannon and Longworth Underground 
Garages. And the next phase of this initiative will incorporate 
the Rayburn Garage into the screening protocol. This will occur 
concurrently with the Rayburn Garage rehabilitation project, 
which will entail the buildout of selected elevator lobbies to 
accommodate the screening equipment and dedicating certain 
elevators to those screening areas. The Cannon Garage screening 
checkpoint will likewise be developed simultaneously with the 
Cannon renovation project.
    In addition to these initiatives, I have been prioritizing 
various security enhancements to further augment our external 
security posture. These projects will enhance the security 
coverage of the Capitol while maintaining the openness and 
park-like structure of the grounds.
    Our 2018 priorities include installing an underground alarm 
around the perimeter of the Capitol, bolstering the physical 
structure of the outer planters in the Olmsted wall, and 
financing a study to upgrade the lighting on the east plaza of 
the Capitol.
    Another exterior security initiative entails the life-cycle 
replacement of post-9/11 physical security infrastructure 
requirements such as the barriers and kiosks. Many security 
barriers and kiosks were installed over a decade ago and are 
beyond their life cycle and must be replaced. Additionally, the 
installation of reinforced windows is a vital part of this 
initiative to upgrade and strengthen the exterior facades of 
the House Office Buildings.
    Along with these enhancements, I have been working closely 
with the Board and the Capitol Police to increase manpower at 
the most heavily used entrances throughout the Capitol complex 
in order to increase presence for prescreening. A core 
component to this prescreening initiative is the use of highly 
specialized K9 teams.
    Within the Capitol, in addition to existing magnetometers, 
continued implementation of enhanced screening portals in the 
Capitol Visitor Center will provide an additional layer of 
security for the House galleries. Visitors are now able to be 
screened for powders, liquids, and other nonmetallic objects.
    Finally, in partnership with the Capitol Police, my office 
maintains a strong, effective outreach program with Member 
offices regarding district office security. We will continue 
this aggressive outreach as Members are active in their 
districts furthering the work of the House of Representatives.
    As always, I am grateful for the unyielding support from 
this Committee as we strive to maintain the delicate balance 
between implementing strong security measures while 
simultaneously allowing free and open access to the Capitol 
complex. I remain vigilant and focused on security 
preparedness, striving to adhere to the strict level of fiscal 
responsibility entrusted to us by the Congress. I will continue 
to keep the Committee informed of my activities and will be 
happy to answer any questions you may have. Thank you.
    [The statement of Mr. Irving follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you very much.
    The Chair now recognizes the Chief Administrative Officer, 
Phil Kiko.

           STATEMENT OF THE HONORABLE PHILIP G. KIKO

    Mr. Kiko. Chairman Harper, Ranking Member Brady, and 
Members of the Committee, I welcome the opportunity to present 
the CAO's current priorities. I would also like to express my 
appreciation for my fellow officers, Karen Haas and Paul 
Irving.
    As the Committee is aware, I began my tenure on August 1. 
Since then, I have had the opportunity to meet nearly every one 
of the more than 600 talented and dedicated employees, 
discussing what they do. This was very productive as it enabled 
the receipt of direct and unfiltered information and input in 
an attempt to obtain the pulse of the organization of the CAO.
    My history with and understanding of the CAO, as was 
indicated, is one that dates back to the formation of the CAO 
organization in the mid-1990s. An examination of the CAO's 
current operations compared with today's needs of the House 
community serves as the basis for the priorities of the 115th 
Congress. However, the immediate priorities do not represent 
the complete CAO picture, only a snapshot in time.
    The CAO strategic plan, cybersecurity, and customer service 
are three of my top immediate priorities. Led by an internal 
cross-functional team, the strategic planning process started 
in August and included input from CAO employees representing 
every business unit. Employing all staff surveys and 
solicitations for input, offsite meetings, focus groups, the 
strategy team spent approximately 5 months refining and 
developing the organization's mission and vision to convey the 
draft strategic plan, which was sent to the Committee last 
week.
    Not unlike the original CAO charter, the new mission and 
vision statements focus on being an essential resource for 
Members and staff by providing outstanding customer service. In 
the coming days and months, as we work to finalize and 
operationalize the plan, we welcome the Committee and other 
stakeholder input.
    Another immediate priority is protecting the House's IT 
infrastructure and the data it supports. Maintaining the 
House's cybersecurity is critical. It is made increasingly 
difficult by ever-evolving cyber threats. Cyber attacks occur 
in varying ways, targeting the House as a whole as well as 
individual network users. To successfully protect the House 
network and its users, a robust cybersecurity posture must be 
maintained. There is a constant assessment and reassessment of 
the House's IT infrastructure, which results in ever-evolving 
and updating strong countermeasures and subsequent investments. 
Success requires a unified front that creates a stronger, more 
controlled IT environment. It requires vigilance and active 
participation by every individual with access to the House 
network. And it requires strict adherence to and enforcement of 
current and future House information security policies. 
Noncompliance with these policies increases the level of threat 
posed to the institution as a whole as well as Members and 
staff individually. The CAO cannot do it alone. All the members 
of this Committee and staff have been very supportive of our 
cybersecurity efforts, and we look forward to continued close 
collaboration.
    Last but not least, I want to mention customer service. 
Whether it is technology services provided to the D.C. and 
district offices; financial services, such as processing 
vouchers or helping Members get more bang out of their buck 
through the procurement team; or caring for the children of 
Members and their staff, the CAO provides a myriad of services 
relied upon by each Member office. Providing each office with 
top-notch service needs to be a priority. The heart of the 
CAO's existence is to serve Members in the House and their 
staff. Every day, CAO employees strive to do so. In my previous 
work on four different committees, the Members' standard was 
perfection or at least to strive for perfection. And that is 
the standard I think that should be utilized in providing 
services to the Members of this Committee and to the House. 
Nothing less will do. Thank you.
    [The statement of Mr. Kiko follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    The Chairman. Thank you Mr. Kiko.
    Committee Members will now ask questions of the witnesses. 
Each Member is allotted 5 minutes to question the witnesses. 
And I will begin by recognizing myself for 5 minutes.
    Mr. Kiko, in your testimony, you described the process of 
formulating the CAO's strategic plan, which included input from 
each business unit within the organization. Can you explain 
briefly the steps going forward as you finalize and come up 
with a way to make this plan work?
    Mr. Kiko. Yeah. So what the process will be going forward 
is--and this is a similar process that was followed when the 
CAO was created and a very similar process that we used when I 
was at the Department of the Interior. But now that we have had 
all this input from various individuals within the CAO, we 
basically are going to move forward on four different concepts 
to try to nail things down with more particularity. These are 
customer focus, process, stewardship, and employees.
    For customer goals, we need to establish a baseline for 
customer satisfaction. Customer satisfaction is the Congress, 
the Members, the other officers, district offices, staff, 
everybody that uses our services, and the outside public as 
well.
    And for process, we need to take a comprehensive look at 
our services, including how they are used as well as how 
consistent and accurate the CAO is in providing the services. 
Using that information, we will try to establish target service 
levels that will be consistent and accurate.
    For stewardship, we need to make sure that we are investing 
in resources that are being utilized by the House and not waste 
money.
    And for employee goals, when all the top three are done, we 
are going to start to overhaul our performance standards for 
all of our employees so they tie back into this, into the 
concepts that I just articulated.
    On Thursday, we are having an all-staff discussion about 
the plan. And that is an all-employees meeting that we are 
going to roll this out. And, obviously, a strategic plan is of 
no value unless it is developed by those responsible for its 
execution. So we are going to have continuous input from staff 
and other stakeholders. Once finalized, we want to start to 
operationalize the plan. And it is a 5-year strategic plan, and 
I hope to have most of this done by the end of 2018.
    The Chairman. Okay.
    Mr. Kiko. Thank you.
    The Chairman. Thank you very much.
    This is really a question for all of you. Every Congress, 
each of your offices works closely with us on the transition 
and New Member Orientation activities. With the majority of the 
transition-related activities behind us and all of the things 
well underway, what, in your opinions, over these last weeks 
went well? Are there any areas that you think that we can 
improve on for the experiences of the Members-elect in the 
future? And I will start with--ladies first. I will go with 
you, Ms. Haas.
    Ms. Haas. Mr. Chairman, I think each cycle things continue 
to improve. And the one item that I found this time that I 
thought was extremely helpful was the focus on opening day. I 
am not sure previously Members had gotten a lot of information 
about what to expect on opening day. So, when you had the 
session and were providing that information as well as you 
heard from some of the Members directly, I think that was 
really a helpful addition to the program.
    The Chairman. Okay.
    Mr. Irving.
    Mr. Irving. Okay. Yeah, I will echo Karen's sentiments. 
This year was a little more challenging during the transition 
than others with the advent, not only of the inauguration, 
which caused a lot of logistical issues in January, but also 
the construction, the Rayburn Garage rehabilitation, and other 
issues that caused a couple of logistical challenges. And 
everyone rose to the challenge. And I appreciate the work of 
this Committee during New Member Orientation because that 
certainly helped with our parking and identification issues. So 
I think it went about as smooth as we could have expected.
    The Chairman. Mr. Kiko.
    Mr. Kiko. I think there are a couple of things. With regard 
to the CAO, with regard to all the responsibilities we had, I 
do think a couple of things stand out. In addition to all the 
effort that was put in by the staff, we did improve our role in 
the Member-elect one-on-one briefings. I thought that was very 
helpful. And also we used, to a much greater extent than I have 
seen in the past, sharing technology so we knew exactly where 
every Member-elect was in every part of the process.
    Was one of your questions improvements too?
    The Chairman. If you have a suggestion for improvements, we 
would like to hear that as well.
    Mr. Kiko. All right. Well, I guess I would like to say that 
we are going to take a very close look at the after-action 
reports. And I also think that we need to expedite district 
office setup. I know that there are some issues with regard to 
the leases always being a 2-year cycle, and the leases run out, 
and they have to be renegotiated. But we also need to figure 
out a way to expedite--to figure out a way to get around that 
process so we can get technology in the district offices 
sooner. The one other thing is there is always--there seems to 
be a problem with inventory that is transferring from the old 
office to the new office. And sometimes some of the inventory 
is not very good, but the Members-elect still want to use it 
because, if they don't have it, then they don't have anything. 
So we have to improve that process too.
    The Chairman. Great. Great suggestions. Thank you.
    I now recognize the Ranking Member of the Committee, Mr. 
Brady, for 5 minutes.
    Mr. Brady. Thank you, Mr. Chairman.
    For our Sergeant at Arms, I would like to thank you. I 
thanked the Chief of Police last night, and I want to thank you 
for the great job you did in Philadelphia for the Democratic 
National Convention. It was done with the utmost 
professionalism, class. Everybody raved about the job that you 
had done as integrating with our police force and also with the 
Capitol Police and no arrests. And it was a tough, tough week. 
It was only 99 degrees, I think. And you guys and gals had to 
be out there in full uniform, some of you with some vests. You 
know, so I want to publicly thank you for the great job you 
did.
    Also, could you tell me--our offices here, this Capitol is 
a fortress--is there anything we can do, you can do, or we need 
to do for our district offices to keep our staff and our 
visitors safe? Any advice?
    Mr. Irving. The district offices are certainly a challenge 
because of the sheer magnitude number of offices that we have 
in the House in our districts. Therefore, we use a very, very 
aggressive outreach approach to Members with security awareness 
training to ensure that those offices are aware of the full 
force multiplier approach that we utilize with State and local 
law enforcement to assist. We aggressively reach out to all the 
law enforcement coordinators in the districts to ensure that 
they are doing everything that they can do to ensure that they 
abide by and use the checklist that we provide for district 
office security. Not only the office itself, the residents, but 
also anytime a Member is out with a townhall appearance or a 
field hearing or any other public appearance in the district, 
we want to be aggressive and ensure that there is adequate 
security. So we liaise very aggressively with local law 
enforcement. As the Chief noted yesterday, the Capitol Police 
has a very aggressive Threat Assessment Section that will 
certainly reach out. We will dispatch officers to districts to 
conduct site security surveys if need be and do other security 
assessments. So, to answer your question, in short, it is 
outreach, aggressive outreach, on security awareness for each 
district.
    Mr. Brady. Thank you.
    Madam Clerk, we noticed the new voting board. Anything else 
that we are doing to improve--any other work to be done on the 
House floor? I know Members come up to me from time to time and 
want more voting boxes. I would imagine that they would 
probably want a voting box right in front of each one of them. 
But I never requested that because I think that they--I don't 
think that is valid to have. But anything new going on on our 
House floor?
    Ms. Haas. So, with the current upgrade to the EVS, you are 
going to see new voting stations. They are going to look 
visually pretty similar to what we have. We are going to have 
LED lighting on the new voting stations. They will also have an 
audio feedback for the visually impaired. As far as additional 
stations, we currently don't have the ability to add, but we 
have built that into the new upgrades.
    Mr. Brady. Thank you. Thank you.
    Mr. Kiko, we had a lot of discussion about inventory 
recently. And it has been an issue that has come up on our 
financial statements. The auditors called it a significant 
deficiency, which I don't agree with. But what is your plan to 
better manage and control inventory both inside the CAO and the 
Members' offices?
    Mr. Kiko. Thank you. Although we have had clean audit 
opinions, we have had significant deficiencies over property 
and equipment since fiscal year 1913 [sic]. And I expect 
another deficiency in fiscal year 1916 [sic]. So I am sort of 
hoping--let me just tell you what we have done and what we need 
to still do.
    In fiscal year 2016, the CAO conducted the third annual 
wall-to-wall physical inventory of CAO-accountable equipment 
and capitalized assets to develop a baseline inventory. We then 
established a central management business unit within the CAO 
to better track this equipment. Asset Management is now 
responsible for the central receiving, management, and disposal 
of assets within the CAO. We just recently hired a new director 
that did some of this stuff with the Architect of the Capitol. 
And we then implemented new scanner security to more 
efficiently capture asset information. It is my hope that we 
can have this cleared up by fiscal year 1918 [sic].
    Mr. Brady. Thank you.
    Again, Mr. Chairman, I think we are most fortunate to have 
them. They have to deal with all our egos and personalities. 
They do it professionally, with class, and do an excellent job.
    And, again, thank you for the job you are doing. Thank you 
for continuing to do it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Brady. I couldn't agree with 
your assessment more.
    And at this time, I will recognize the Vice Chairman of the 
Committee, Rodney Davis, for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. And thanks to all of 
you.
    Mr. Kiko, I was a little shocked when I heard you say 
``fiscal year 1913.'' I was wondering if you were here at that 
point.
    Mr. Kiko. I meant 2013. Thank you.
    Mr. Davis. Well, we appreciate what you are doing. And 
thank you for, you know, putting up with our humor too.
    I appreciate some of the comments that were made in regard 
to, you know, an after-action report on looking how we can do 
things better, you know, looking at our next swearing in. 
Obviously, this January 2 was different than my previous two, 
being a Federal holiday. I hope that the Committee can continue 
to work with the three of you through Chairman Harper to ensure 
that we have an even better process going forward after you get 
those after-action reports.
    Ms. Haas, you and I have talked about the upgrade to the 
Electronic Voting System. I appreciate what you are doing 
there. And I know that this is kind of a followup to some of 
the previous questions. But I know that it was supposed to be 
done by August when we first talked. Can you let the Committee 
know what you are doing to ensure that this process is moving 
ahead as quickly as possible to get toward being on schedule? 
And what are you doing to address the IG recommendations?
    Ms. Haas. Sure. Thank you. So you are correct. We had hoped 
to be able to transition to the new Electronic Voting System 
last August. We did put all the wiring in during the August 
recess of last year, but because we are using new technology, 
the new microprocessors that were engaged in the testing did 
not meet the standards that we expect. So they had to go back 
and find a different microprocessor. So our vendor is still 
working on the prototype. We expect to have that within the 
next couple weeks.
    We have weekly telephone conference calls with our vendor 
to ensure that we are making progress on our effort. One of the 
things that is really challenging is that the technology that 
we are using is state-of-the-art technology, and with our 
voting system, it has to be 100 percent. So we are going to 
make sure that that testing is done completely with our vendor. 
And then, once we receive it, we will do additional testing 
before we deploy. August is the ideal time to go forward with 
the system because we need to do all the installations on the 
House floor and test it fully again. So we need a several-week 
break for the install. So we are pushing weekly with updates 
from our vendor to ensure they are meeting that timeline.
    Mr. Davis. What about any other IG recommendations?
    Ms. Haas. So you are correct. We had a couple remaining 
items from the IG. As of last week, we sent them an updated 
memo on the outstanding items. There are two items that are 
tied into the EVS upgrade. We are not able to make those 
updates until this upgrade is complete. So we have addressed 
all of the ones that we could at this point. The remaining two 
will be addressed as part of this next upgrade.
    Mr. Davis. Thank you. Thank you.
    Mr. Kiko, Mr. Harper actually made a wager with me that I 
couldn't make you laugh earlier. I won. So let's see if I can 
do it again.
    I wanted to ask you: As you know, I helped lead a review of 
the financial processes in the last Congress, and you and I 
have talked about this on occasion; how do we make it work 
better for our offices, and also how do we make it work better 
for the folks you have working for you in the Office of 
Finance?
    Do you think the Finance Office is following our 
recommendations that were made during that review process that 
you and I have talked about?
    Mr. Kiko. I think they are. I mean, we support the 
standards. And we do believe--and I have looked into this--that 
they provide the right amount of controls. Having said that, we 
would like to, I know, make some fine-tune adjustments so that 
we are not just chasing small dollars, you know, so that we are 
going after the right amount. Training is still key for the 
staff to make sure there aren't mistakes. There is an issue 
with regard to we have to make sure that there is knowledge 
management, that everybody understands what the regulations 
are, and there is consistency. So I know that they are trying 
to comply. And I think there is going to be some reports, you 
know, on that. In addition, we have an assessment for the 
Finance Office that is going to be an outside assessment that 
will help tamp that down further.
    Mr. Davis. When do you anticipate that assessment being 
brought to completion?
    Mr. Kiko. In September.
    Mr. Davis. September. Okay. Well, thank you. And please 
offer our thanks to the men and women who work in the Finance 
Office. I know they do a great job on a daily basis.
    Mr. Kiko. Thank you.
    Mr. Davis. Thank you.
    I yield back.
    The Chairman. The gentleman yields back.
    I will now recognize Mr. Walker for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Mr. Kiko, thank you again for your time yesterday. I 
appreciated getting a little more background. I hope we can do 
that again. Very informative for us.
    Mr. Brady already touched on a little bit of where I was 
wanting to go, Mr. Irving, with some of the district concerns 
that seem to be growing. I know, even at our conference this 
morning, we talked about it. So I won't go too much in there. 
You did mention the law enforcement coordinator program. Could 
you take maybe 30 seconds and expound a little bit more on, 
specifically, what consists of that?
    Mr. Irving. Yes. We ask each office, each district office, 
to appoint a law enforcement coordinator, who is the point of 
contact between the office and local law enforcement but also 
to our office and the Capitol Police; and remain vigilant of 
any item security, you know, item or issue in the district; and 
ensure that they maintain a liaison with local law enforcement, 
let them know, again, if a Member is going to be out and about 
in the district, if they foresee anything, and likewise 
maintain a liaison with us.
    Mr. Walker. Are you getting Member participation to the 
level that you feel like it should be?
    Mr. Irving. It is outstanding. We are over 90 percent now.
    Mr. Walker. Wow.
    Mr. Irving. There are a few here and there that we need to 
update, but generally speaking, we have a very, very positive 
response to the program.
    Mr. Walker. I am glad to hear that. I know it is hard to 
speculate or predict, but if we look out over the next year or 
two for protests or for things that are happening here around 
the Capitol, can you talk a little bit about some of the 
preemptive work that you guys are doing?
    Mr. Irving. Yes. Absolutely. In the district, for example, 
the Capitol Police have a very robust Threat Assessment Unit 
that looks at open-source information and also works with 
Member offices to foresee any potential demonstrations or 
security issues in the district. If they do foresee a 
demonstration or something that might be a little volatile, 
they will reach out to local law enforcement for assistance, 
and again, if it warrants, I will authorize Capitol Police to 
go to that Member district as well.
    In town, we also have an uptick in the demonstration 
activity. Capitol Police does an outstanding job at 
demonstration management. They have a number of what they call 
CDU, or Civil Disturbance Units or platoons, that are actively 
engaged when we foresee that we are going to have issues and do 
a great job. So the key is to stay ahead of it with 
intelligence and with other information to ensure that we have 
the manpower to address it.
    Mr. Walker. Under the First Amendment, we want to make sure 
that everybody's opportunity to protest, to speak out on things 
they believe in, is always protected. You did use the term 
``civil disobedience.'' So you are going on record, I guess, to 
say that there is some kind of plan if it reaches that place--
and we certainly hope it doesn't--or worse, that you guys feel 
confident that whatever the venue or the event, the protest or 
the demonstration, that we would have an adequate plan in 
place?
    Mr. Irving. Yes. And I very much appreciate you qualifying 
that. It is rare, really, that we get true civil disobedience. 
Most people that come to the Capitol exercise their First 
Amendment rights in a very, very peaceful manner. So the 
Capitol Police are very respectful of the First Amendment 
rights and have a very established process in place for permits 
and demonstrations. We always ensure that we do the best that 
we can to be on the forefront of that.
    Mr. Walker. I am glad to hear that. I just have one other 
question. Can you outline the current programs and initiatives 
you offer to the D.C. staff, such as the Office Emergency 
Coordinator Program--in case there was an emergency, since it 
is a new season, new time, I just want to make sure that, from 
an update standpoint, would you take just a second and address 
that?
    Mr. Irving. Yes. We also continually update our Office 
Emergency Coordinator Program to ensure that each office here 
in D.C. has a representative that liaises with our office and 
also ensures that the emergency management procedures of each 
office is up-to-date and everyone is trained and versed in 
emergency management procedures, such as what to do in case of 
a fire, what to do in case of an emergency relocation, and 
those sorts of items. So yes. We also have fantastic 
cooperation, and a very high percentage of offices also 
volunteer and help out.
    Mr. Walker. Thank you, Mr. Irving.
    With that, Mr. Chairman, I will yield back.
    Thank you.
    The Chairman. The gentleman yields back.
    The Chair will now recognize Mr. Smith for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you. For our witnesses here today, I appreciate your 
service. Obviously, you have a very integral role in the 
operation of the House of Representatives, Congress in general. 
So I am grateful for your service.
    Mr. Kiko, your testimony talks a lot about customer service 
and so forth. And I can certainly appreciate that. I am glad 
that you highlight that. I am just curious; have there been any 
current benchmarks established in terms of being able to kind 
of gauge where we are now and where we might want to go in the 
future?
    Mr. Kiko. Not yet. I mean, I think that is the next step, 
probably within the next couple of months. We are just rolling 
out the strategic plan to all the offices, all the staff in the 
CAO, on Thursday, and then they are going to look at the 
strategic plan. And then we are starting to establish those 
benchmarks soon thereafter. But we don't have anything yet 
although some of the efforts, you know, that we have had in the 
past, like what Congressman Davis was talking about on voucher 
processing and those kinds of things, those will fold into some 
of that. But we have not established any benchmarks yet.
    Mr. Smith. Okay. Thank you.
    Ms. Haas, your testimony alludes to the changes made this 
past January in the rules package requiring each bill, 
resolution, amendment, et cetera, that comes to the House floor 
to have a comparative print. Is your office the lead with 
respect to implementing this rule change? What steps have you 
taken to move forward?
    Ms. Haas. Yes. I think we are taking the lead in this 
project. And we are working very closely with Leg Counsel. Much 
of the work has to come from the Office of Leg Counsel. But I 
think we have the technical expertise. But we may need to go 
outside to get additional assistance with the other IT projects 
that we already had in the pipeline. So we have been meeting 
weekly at this point, and we are trying to narrow down the 
scope of the project.
    Mr. Smith. Okay. Very well. Thank you.
    I yield back.
    I yield back, Mr. Chairman. Thank you very much.
    The Chairman. The gentleman yields back.
    Mr. Brady, anything else?
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as they can so that those answers may be 
made a part of the record.
    I just want to thank each of you for being here today. You 
know, this Committee has oversight responsibilities. And the 
one word no one wants to hear is ``surprise,'' and so if there 
is a problem or something going on, please come to us. We are 
all in this together, and I appreciate your attendance today.
    Without objection, this hearing is adjourned.
    [Whereupon, at 11:49 a.m., the Committee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
   
   
   
</pre></body></html>
